NOAA repurposed the JPSS ground system from its original role of supporting a research and
prototyping project under the National Polar-orbiting Operational Environmental Satellite
System (NPOESS) 5 to one that supports operational satellites for the JPSS program. This was
done due to delays with the NPOESS program. Thus, the ground system now in place was not
originally intended to support operational satellites nor was it designed to meet Department of
Commerce IT security requirements. 6 In 2010, NOAA began to modify the ground system to
support the newly established JPSS program but, until January 2014, the program did not
require the ground system contractor to begin full implementation of the majority of the
security controls for the system. As a result, few security controls are fully implemented and
many high-risk vulnerabilities exist within the system. Specifically,

    •   The JPSS program’s security assessments for fiscal years (FYs) 2012 and 2013 found that
        only about a quarter of the Department’s required National Institute of Standards and
        Technology (NIST) security controls had been fully implemented.

    •   Our analysis of the JPSS program’s assessments of system vulnerabilities found that,
        since FY 2012, the number of high-risk vulnerabilities in the system had increased by
        two-thirds 7 despite recent efforts the program has taken to remediate these
        vulnerabilities (see figure 1). Vulnerabilities are defined as high-risk if they are relatively
        easy for attackers to exploit and gain control over system components. If exploited,
        these vulnerabilities may make it possible for attackers to significantly disrupt the JPSS
        mission of providing critical data used in weather forecasting and climate monitoring.
        Software used by the JPSS system contains vulnerabilities that have been publicly known
        for several years. Software tools to exploit several of these vulnerabilities are available
        on the Internet.

NOAA is responsible for ensuring that its IT systems have an appropriate operational security
posture, which includes timely remediation of high-risk vulnerabilities in the JPSS ground
system. While the program has begun implementing plans to make the necessary changes that
will correct the JPSS ground system’s numerous IT security weaknesses and vulnerabilities, the
majority of these issues will not be remediated for another 2 years.




5
  The National Polar-orbiting Operational Environmental Satellite System (NPOESS) was created in 1994. In 2010,
a portion of it was restructured as the JPSS program. The ground system supported the NPOESS Preparatory
Project (NPP), which was intended to demonstrate new instruments.
6
  The NPOESS was a tri-agency program including NOAA, NASA, and the Department of Defense. The ground
system was built to meet Department of Defense security requirements.
7
  The number of vulnerabilities in a system may increase because new vulnerabilities in software used by the JPSS
program are constantly being uncovered and publicly reported (e.g., by software vendors, security researchers).
Additionally, changes made to the existing system (for example, installing new software or operating systems) may
introduce new vulnerabilities if IT security protections are not fully integrated with the changes.


                                                        2
                 Figure 1. Number of High-Risk Vulnerability Instances
       in the JPSS Ground System, by Quarter, FY 2012 to FY 2014 2nd Quarter

       30,000



       20,000
                                                                                           23,868


                14,486
       10,000
                  Q1       Q2      Q3      Q4       Q1      Q2      Q3       Q4      Q1       Q2
                             FY 2012                          FY 2013                  FY 2014

       Source: JPSS Quarterly Ground System Vulnerability Assessment Analysis Reports FYs 2012–2014




Objectives, Findings, and Recommendations

The objective of our audit was to assess the effectiveness of NOAA’s IT security program by
determining whether key security measures adequately protect NOAA’s systems. (For detailed
objectives, scope, and methodology please see appendix A.) We found that the JPSS program
needs to expedite its efforts to reduce the current IT security-related risks to its ability to
support critical weather forecasting operations and improve the overall security posture of
JPSS’ ground system.

  I.   Expedite Remediation of High-Risk Vulnerabilities

   Although full implementation of many of the missing and partially implemented security
   controls requires the significant changes that are planned for the next iteration of this
   system, there are steps the program can take now to improve its security posture. We
   found that there are numerous high-risk vulnerabilities that we believe can be corrected
   with only minor alterations to the existing system. In the past, these have taken a year or
   more to remediate, because the JPSS program has seldom used the expedited processes it
   has developed to deploy high-risk security fixes and did not direct the contractor
   responsible for the ground system to use these processes to remediate vulnerabilities in a
   timely manner.

   A. Many High-Risk Vulnerabilities Are Remediable with Minor Alterations to the Existing System

       We examined the JPSS ground system’s vulnerabilities that were identified by the
       program and believe that there are high-risk vulnerabilities that could be remediated by
       making minor alterations to the existing system. These include:




                                                    3
      •    More than 9,100 instances of high-risk vulnerabilities identified by vulnerability
           scans, including (a) out-of-date software versions or missing security patches, (b)
           insecurely configured software, and (c) unnecessary user privileges within the
           operating systems and software.

      •    More than 3,600 instances where password and auditing settings need to be
           configured in accordance with JPSS policy.

      •    Unnecessary software applications that need to be removed or disabled.

      •    Three outstanding vulnerabilities identified by penetration testing conducted in
           June 2012.

   We believe remediating these vulnerabilities should require only minor alterations to
   the existing system because they include simple actions, such as deploying missing
   security patches and updates that are compatible with the existing system and are
   available from vendors; correcting minor misconfigurations in applications or operating
   systems; or removing unneeded applications.

B. Remediation of Vulnerabilities Has Been Slow

   The JPSS security policy for the ground system requires remediation of high-risk
   vulnerabilities within 30 days of identification and remediation on a quarterly basis for
   moderate- to low-risk flaws. However, it took the JPSS program 11 to 14 months to
   remediate high-risk vulnerabilities it identified in the ground system. We found that

       •   The vulnerabilities the program determined it could fix that were identified from
           penetration testing in June 2012 were not remediated until September 2013.

       •   Most of the vulnerabilities resulted from flaws in software that was running
           within the system. However, the time between deployments of software updates
           and security patches to remediate these flaws varied from 11 to 14 months
           during the period 2011 to 2013, meaning that remediation activities only
           occurred about once a year.

   Remediating vulnerabilities at such intervals is not sufficient to keep up with the rapid
   growth in the number of vulnerabilities found in the system (see figure 1). For the last 2
   years, the JPSS program had planned to address system vulnerabilities by means of two
   maintenance releases per year. Not only did this fall significantly short of the system’s
   requirement for patching high-risk vulnerabilities within 30 days but, of the two
   maintenance releases scheduled each year, only one was actually performed. According
   to JPSS management, since 2011 maintenance releases to the system were suspended
   for 344 days to allow for the evaluation of contractor performance and conducting
   important operational events, such as preparation for the launch of the Suomi NPP
   satellite and subsequent on-orbit testing.




                                             4
        The remediation of high-risk vulnerabilities is critical to the continued success of the
        JPSS mission and should have a high priority. The more high-risk vulnerabilities that exist
        in the system, the higher the probability is that an attacker could compromise it. This
        could lead to a disruption of NOAA’s ability to command and control the Suomi NPP
        satellite and to provide data that is used in numerical weather models that support
        weather predictions and climate monitoring. The importance of remediating these
        vulnerabilities justifies addressing them outside the regular cycle of maintenance
        deployments.

        Processes for deploying urgent updates are in place. Using these processes would have
        made it possible for the JPSS program to correct many high-risk vulnerabilities in an
        expedited manner. Also, the vulnerability management plan for the ground system
        includes monitoring and prioritization of vulnerabilities by the ground system’s Patch
        and Vulnerability Group (PVG), which is a group of system and IT security experts
        within the JPSS program. Since June 2012, the PVG repeatedly recommended that high-
        risk vulnerabilities be corrected immediately. However, the JPSS program only used the
        urgent update processes once during this time period, to remediate one vulnerability.

        Urgent updates to the JPSS ground system were not performed because the program
        did not require that the ground system contractor remediate vulnerabilities in a timely
        manner. The contractor was required to remediate vulnerabilities identified by the JPSS
        program in its plans of action and milestones (POA&Ms)—a management tool used to
        identify, assess, prioritize, and monitor efforts to correct IT security vulnerabilities—but
        the POA&Ms created by the JPSS program allowed 8–13 months for correction of high-
        risk vulnerabilities. Thus, the JPSS program did not effectively use its POA&Ms to ensure
        that high-risk vulnerabilities were remediated in a timely manner.

        While the fieldwork for this audit was being conducted, the JPSS program began
        implementation of a plan that would deploy fixes to correct vulnerabilities quarterly
        instead of semiannually, by adding two deployments to the two already planned each
        year. But even if the JPSS program is able to successfully deploy fixes quarterly, there
        will still be gaps of potentially up to 3 months before some high-risk vulnerabilities can
        be addressed.

    Conclusions

        It is essential that the JPSS program’s existing urgent update processes be used to
        correct high-risk vulnerabilities in the ground system’s critical components. 8 We believe
        that the types of high-risk vulnerabilities we have identified in finding I(a) of this
        memorandum can be fixed in an expedited manner and should be addressed as soon as
        possible. Although these measures will not address all vulnerabilities, we believe that
        they will improve protection of the current JPSS ground system until NOAA deploys
        the next iteration of its ground system. Considering that the current system’s security

8
 JPSS ground system critical components include those that are associated with command, control, and
communication of the satellite and that process data used in numeric weather models and forecast offices in
Alaska.


                                                        5
       posture was at a disadvantage from the outset—having not incorporated security into
       its development when it was transitioned into the JPSS—the program needs to ensure
       that the security measures planned for the next iteration of the ground system are
       included from the beginning and not added later or deferred.

   Recommendations

       To reduce the risks of compromise to the JPSS ground system, we recommend that the
       NOAA Assistant Administrator for Satellite and Information Services and NOAA’s
       Chief Information Officer ensure that

           1. The JPSS program review the types of vulnerabilities identified in finding 1(a) of
              this memorandum and, where possible, correct them as soon as feasible.

           2. Urgent system update processes are used to deploy high-risk security-related
              software patches and updates, based on the criticality of the patches and the
              system components affected.

           3. POA&Ms require that newly discovered, high-risk, JPSS vulnerabilities be
              remediated within 3 months.

We have summarized your agency’s response in this memorandum and included the formal
response as appendix B. The final memorandum will appear on the OIG website pursuant to
section 8M of the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We appreciate the cooperation and
courtesies extended to us by your staff during our audit. If you have any questions or concerns
about this memorandum, please contact me at (202) 482-1855 or Dr. Ping Sun, Director for IT
Security, at (202) 482-6121.

Attachment

cc: Steve Cooper, Chief Information Officer
    Mark Paese, Acting Assistant Administrator for Satellite and Information Services, NOAA
    Zachary Goldstein, Acting Chief Information Officer, NOAA
    Mike Maraya, Acting Director, Office of Cyber Security, and Chief Information Security
      Officer
    Harry Cikanek, Director, JPSS Program, NOAA
    Lawrence Reed, Director, Cyber Security Division, NOAA
    Irene Parker, Acting Assistant Chief Information Officer, Satellite and Information Service,
      NOAA
    Brian Doss, Audit Liaison, NOAA
    Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer




                                                6
Summary of Agency Response and OIG Comments

NOAA Response

In response to our draft memorandum, NOAA concurred with our recommendations. NOAA
indicated that it had already implemented recommendation 2, explaining that it remediated the
Heartbleed vulnerability 9 during the third quarter of FY 2014. NOAA also requested deletion
of the following sentence on page 5, paragraph 3, “Using these processes would have made it
possible for the JPSS program to correct high-risk vulnerabilities in an expedited manner.”
NOAA requested this deletion to reflect remediation of Heartbleed in an accelerated manner.
NOAA’s complete formal response is included as appendix B.

OIG Comments

In preparing this final report, we thoroughly considered NOAA’s formal comments and
informal comments made in discussions and other communications subsequent to the issuance
of our draft report.

With regard to NOAA’s response concerning recommendation 2, remediating the Heartbleed
vulnerability in an expedited manner is a step in the right direction, however numerous
vulnerabilities remain. Going forward, we encourage NOAA, as it corrects the existing and
future vulnerabilities within the JPSS ground system, to fully implement this recommendation.

In regard to NOAA’s request in its response for removal of our sentence on page 5 paragraph
3, NOAA’s assertion that it remediated the Heartbleed vulnerability does not change the fact
that the JPSS program could have remediated many high-risk vulnerabilities using its urgent
update processes, especially those recommended by its PVG group for immediate correction.
As noted in our memorandum, these processes were seldom used. We have added the word
“many” to this sentence to avoid misinterpretation that the JPSS program has not remediated
any vulnerabilities using urgent update processes.




9
 Heartbleed is a vulnerability in commonly used versions of open-source cryptographic software that received
widespread media attention in April 2014 because it could allow attackers to expose sensitive data.


                                                       7
Appendix A: Objectives, Scope, and Methodology
Our audit objective was to assess the effectiveness of NOAA’s information security program by
determining whether key security measures adequately protect NOAA’s systems. In
contribution to this objective, we reviewed the implemented security controls and known
vulnerabilities of the JPSS ground system. To do so, we

   •   Reviewed the system-related artifacts since FY 2011, including risk, vulnerability, and
       security control assessments; policy and procedures; planning documents; and other
       material related to the current security posture of the ground system, and

   •   Interviewed operating unit personnel including IT security officers and organizational
       directors.

We reviewed NOAA’s compliance with the following applicable internal controls, provisions of
law, regulation, and mandatory guidance:

   •   The Federal Information Security Management Act of 2002

   •   IT Security Program Policy and Minimum Implementation Standards, U.S. Department of
       Commerce, introduced by the Chief Information Officer on January 9, 2009, and
       applicable Commerce Information Technology Requirements

   •   NIST Federal Information Processing Standards Publications:

           o 199, Standards for Security Categorization of Federal Information and
             Information Systems

           o 200, Minimum Security Requirements for Federal Information and Information
             Systems

   •   NIST Special Publications:

           o 800-37 Rev. 1, Guide for Applying the Risk Management Framework to Federal
             Information Systems: A Security Life Cycle Approach

           o 800-53 Rev. 3, Recommended Security Controls for Federal Information Systems
             and Organizations

           o 800-53A Rev 1, Guide for Assessing the Security Controls in Federal Information
             Systems and Organizations, Building Effective Security Assessment Plans

We conducted our field work on the JPSS ground system portion of our FISMA audit of the
NOAA IT security program from October 2013 to May 2014. We performed this audit under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated April 26, 2013, and in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                8
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions.




                                              9
Appendix B: Agency Response




                              10
11
011200000163




    12
